TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Significant Improvements Have
                      Been Made in the Oversight of the
                      Volunteer Income Tax Assistance
                  Program, but Continued Effort Is Needed to
                  Ensure the Accuracy of Services Provided



                                         November 2005

                              Reference Number: 2006-40-004




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               November 4, 2005


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Significant Improvements Have Been Made
                              in the Oversight of the Volunteer Income Tax Assistance Program,
                              but Continued Effort Is Needed to Ensure the Accuracy of Services
                              Provided (Audit # 200540002)

 This report presents the results of our review to determine whether taxpayers receive quality
 service, including the accurate preparation of their tax returns, when visiting Volunteer Income
 Tax Assistance (VITA) sites to have tax returns prepared.1 We also assessed the ease with which
 taxpayers can locate VITA sites and determine the specific services offered and the Internal
 Revenue Service’s (IRS) process for ensuring the overall quality of VITA Program operations.
 This audit is a follow-up to a prior Treasury Inspector General for Tax Administration (TIGTA)
 review.2

 Synopsis
 The Tax Reform Act of 19693 resulted in the formation of the VITA Program. Emphasis has
 continually focused on expanding the VITA Program through increased recruitment of social
 service, nonprofit, corporate, financial, educational, and government organizations; involvement
 of the military on a national level; and expansion of assistance provided to the
 limited-English-proficient community. VITA sites are often located at neighborhood centers,
 libraries, schools, churches, and shopping malls. The VITA Program provides no-cost Federal
 tax return preparation and electronic filing to target underserved segments of individual


 1
   Testing did not involve VITA sites associated with the military or the Tax Counseling for the Elderly Program.
 2
   Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly at Internal Revenue Service Volunteer
 Income Tax Assistance Sites (Reference Number 2004-40-154, dated August 2004).
 3
   Pub. L. No. 91-172, 83 Stat. 487 (codified as amended in scattered sections of 26 U.S.C. and 42 U.S.C.).
                     Significant Improvements Have Been Made in the Oversight of
                             the Volunteer Income Tax Assistance Program,
                              but Continued Effort Is Needed to Ensure the
                                     Accuracy of Services Provided


taxpayers, including low-income, elderly, disabled, and limited-English-proficient taxpayers.
These taxpayers are frequently involved in complex family situations that make it difficult to
correctly understand and apply the tax law.
The prior TIGTA review identified that VITA volunteers did not always correctly prepare tax
returns and taxpayers did not always receive accurate information about VITA site locations,
hours of operation, and scope of services from the IRS. IRS management committed to
emphasizing the requirement for VITA volunteer training certifications; implementing an
automated system to improve the Stakeholder Partnerships, Education, and Communication
(SPEC) function’s ability to provide VITA volunteers with Quality Alert updates; implementing
a plan for quality review and quality assurance; and building an indicator in the IRS computer
system used to control VITA sites for field offices to use to acknowledge verification of
VITA site information accuracy.
From February through April 2005, TIGTA auditors performed 36 anonymous visits and had
35 tax returns prepared.4 We determined the IRS had established and implemented a number of
initiatives and processes that have resulted in improvements to the VITA Program, including the
SPEC function’s increased ability to oversee and monitor the Program. The SPEC function is
requiring all VITA volunteers, regardless of their professional background and experience, to
pass5 a tax law examination and sign a Standards of Conduct Volunteer Return Preparation
Program (Form 13615), enhancing training and tax reference materials, developing a multiyear
quality business plan, and upgrading the management information system.
In addition, the SPEC function began issuing Quality Alerts to proactively address emerging
issues affecting the quality of tax return preparation. The extent to which the Quality Alerts are
reaching the frontline VITA volunteers remains somewhat unanswered because there is no
system in place to ensure all VITA sites and VITA volunteers receive the Alerts. After the
Quality Alerts were issued, TIGTA auditors asked volunteers at 18 VITA sites if the sites had
received the Alerts; 6 (33 percent) of the 18 VITA sites had not.
Challenges remain for an effective quality assurance process. Key controls implemented by the
SPEC function to help ensure the accuracy of tax returns prepared by VITA volunteers were not
consistently followed. As a result, 23 (66 percent) of the 35 tax returns prepared during this
review were incorrect. If 18 (78 percent) of the 23 incorrectly prepared tax returns had been
filed, the IRS would have incorrectly refunded $17,818. Alternatively, if the remaining
5 (22 percent) incorrectly prepared tax returns had been filed, the taxpayers would not have
received $3,215 in tax refunds to which they were entitled.



4
  At one site, a tax return was not completed because some volunteers had not been certified (i.e., they were not
trained and had not signed the Standards of Conduct Volunteer Return Preparation Program (Form 13615)).
5
  To “pass” an examination, the VITA Program volunteer must earn a score of 70 percent or better.
                                                                                                                    2
                    Significant Improvements Have Been Made in the Oversight of
                            the Volunteer Income Tax Assistance Program,
                             but Continued Effort Is Needed to Ensure the
                                    Accuracy of Services Provided


Reviews of the selected VITA sites showed that VITA volunteers did not always use or refer to
intake sheets or resource guides when preparing tax returns and did not always perform a quality
review of the completed tax returns. In addition, controls developed to ensure VITA site
information provided by the IRS is accurate were not always followed. VITA site information
provided by IRS toll-free telephone program assistors was inaccurate for 29 (45 percent) of
64 sites tested.
Furthermore, although a comprehensive quality assurance process was proposed in response to
the prior TIGTA review, a number of obstacles, including stakeholder concerns about the
intrusiveness of an observation process and data collection restrictions, have prevented the
implementation of an effective process.

Recommendations
We recommended the Commissioner, Wage and Investment Division, develop a process to
ensure Quality Alerts are distributed to all VITA volunteers, revise the Tax Preparation
Information Sheet (Form 13614)6 to include questions to determine whether taxpayers are
divorced and anyone else can claim their children as dependents, ensure Site Information Sheets
are received from each participating VITA site and the information from the Sheets is accurately
reflected in the information used by IRS toll-free telephone program assistors, and pursue
methods to achieve the objectives for the quality assurance process planned for the
2005 Filing Season.7

Response
IRS management appreciates our continued recognition of the immense challenges that
VITA volunteers face in preparing accurate returns, considering the complexity of the tax law
and the often complicated family situations. IRS management also agrees challenges remain and
the process could be improved. IRS management agreed with our recommendations and is
taking corrective actions. The SPEC function will educate partners and site coordinators on the
Quality Alerts at site coordinator meetings and will conduct random checks at the Territory level
to determine if volunteers received the Quality Alerts. It also revised the Form 13614 to include
questions to determine whether taxpayers are divorced and anyone else can claim their children.
In Fiscal Year 2006, the SPEC function will require mandatory use of the newly designed SPEC
Volunteer Site Information Sheet (Form 13715). Area Offices will ensure site accuracy by
conducting at least 10 percent test calls to VITA appointment-only sites by March 1, 2006. The
SPEC function will develop procedures for continuous updates by sharing the Form 13715

6
  The IRS refers to Form 13614 as the “Interview and Intake Sheet” in its response to the draft report (Appendix IX).
7
  The 2005 Filing Season relates to the processing of Tax Year 2004 tax returns. The filing season is the period
from January through mid-April when most individual income tax returns are filed.
                                                                                                                   3
                 Significant Improvements Have Been Made in the Oversight of
                         the Volunteer Income Tax Assistance Program,
                          but Continued Effort Is Needed to Ensure the
                                 Accuracy of Services Provided


electronically with site coordinators to provide real-time changes that may occur throughout the
filing season. Finally, the SPEC function is planning a three-tier approach to its Quality
Improvement Program to include site reviews, shopping reviews, and tax return reviews. The
tax return reviews will be in lieu of observation reviews because of stakeholder concerns and
SPEC function management’s belief that the observations did not yield valid data because
individuals act differently when being observed. Management’s complete response to the draft
report is included as Appendix IX.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or Scott
Macfarlane, Acting Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (925) 210-7027, ext. 102.




                                                                                                   4
                       Significant Improvements Have Been Made in the Oversight of
                               the Volunteer Income Tax Assistance Program,
                                but Continued Effort Is Needed to Ensure the
                                       Accuracy of Services Provided




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 7
          Significant Improvement in the Oversight of the Volunteer
          Income Tax Assistance Program Has Been Made........................................Page 7
                    Recommendation 1:........................................................Page 12

          Challenges Remain for an Effective Quality Assurance Process .................Page 12
                    Recommendations 2 and 3: ..............................................Page 19

                    Recommendation 4:........................................................Page 20


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 21
          Appendix II – Major Contributors to This Report ........................................Page 24
          Appendix III – Report Distribution List .......................................................Page 25
          Appendix IV – Sites Reviewed and Volume of Tax Returns Prepared
          During the 2005 Filing Season .....................................................................Page 26
          Appendix V – Volunteer Quality Alerts Issued During
          the 2005 Filing Season..................................................................................Page 27
          Appendix VI – Results of Tax Returns Incorrectly Prepared
          at Volunteer Income Tax Assistance Sites....................................................Page 29
          Appendix VII – Tax Preparation Information Sheet.....................................Page 30
          Appendix VIII – Quality Review Checklist..................................................Page 31
          Appendix IX – Management’s Response to the Draft Report ......................Page 32
                    Significant Improvements Have Been Made in the Oversight of
                            the Volunteer Income Tax Assistance Program,
                             but Continued Effort Is Needed to Ensure the
                                    Accuracy of Services Provided




                                            Background

The Internal Revenue Service (IRS) Volunteer Income Tax Assistance (VITA) Program
originated in 1969 due to enactment of the Tax Reform Act of 19691 and an increased emphasis
on taxpayer education programs. Emphasis has continually focused on expanding the
VITA Program through increased recruitment of social service, nonprofit, corporate, financial,
educational, and government organizations; involvement of the military on a national level; and
expansion of assistance provided to the limited-English-proficient community. The location of
community-based VITA sites2 is often neighborhood centers, libraries, schools, churches, and
shopping malls.
The VITA Program plays an increasingly important role in the IRS goal of improving taxpayer
service and facilitating participation in the tax system. The VITA Program provides no-cost
Federal tax return preparation and electronic filing (e-filing) to target underserved segments of
individual taxpayers, including low-income, elderly, disabled, and limited-English-proficient
taxpayers. These taxpayers are frequently involved in complex family situations that make it
difficult to correctly understand and apply the tax law.
Oversight of the VITA Program is the responsibility of the IRS Stakeholder Partnerships,
Education, and Communication (SPEC) function.
The SPEC function is responsible for determining
policies and procedures, developing products and            For the 2005 Filing Season,
                                                        taxpayers using the VITA Program
training material, and monitoring and managing         to prepare and e-file their tax returns
VITA Program activity. The SPEC function’s                potentially saved a minimum of
business objectives include increasing access to                     $30 million.
VITA sites for low-income taxpayers, increasing
e-filing, and enhancing tax return accuracy. During the 2005 Filing Season,3
4,620 community-based VITA sites were involved in the preparation of over 600,000 tax returns.




1
  Pub. L. No. 91-172, 83 Stat. 487 (codified as amended in scattered sections of 26 U.S.C. and 42 U.S.C.).
2
  Community-based VITA sites do not include the 9,527 sites associated with the military or the Tax Counseling for
the Elderly Program, including the AARP (formerly the American Association of Retired Persons).
3
  The 2005 Filing Season relates to the processing of Tax Year 2004 tax returns. The filing season is the period
from January through mid-April when most individual income tax returns are filed.
                                                                                                          Page 1
                  Significant Improvements Have Been Made in the Oversight of
                          the Volunteer Income Tax Assistance Program,
                           but Continued Effort Is Needed to Ensure the
                                  Accuracy of Services Provided



The VITA Program model is based on the assumption that national and local
partners will invest in tax administration

While preparing accurate tax returns is an immediate business objective of the VITA Program,
sustaining current levels of tax preparation service is a critical strategic challenge. Supporting
and delivering significant tax return preparation volume is resource intensive. The
SPEC function’s partner-based business model is rapidly evolving to address this issue. It is
based on the fundamental assumption that national and local partners will invest in tax
administration (i.e., outreach and tax return preparation) if such programs provide tangible
benefits for their constituents.
Therefore, an early component of the model linked funds produced through tax refunds and tax
credits to broader financial literacy and asset-building initiatives for taxpayers that seek the
services provided by a VITA site. Accurate tax return preparation became the catalyst for the
SPEC function’s partners to offer financial workshops; bring the “unbanked” into the financial
system; provide debt and credit counseling; and, in many cases, offer individual development
accounts. SPEC function management supports these initiatives because they believe there is a
link between financial viability and ongoing tax compliance.
That tax administration can serve as the means to broader ends is central to the SPEC function’s
strategic vision. To expand the value of community-based partnerships or coalitions and, more
importantly, expand the scope of potential resources, the SPEC function and its partners are
introducing multibenefit services to volunteer programs. Increasingly, services such as food
stamps and children’s health insurance, food and nutrition education, energy assistance, and
transportation subsidies directed to low-income individuals and families are being offered at
VITA sites.
Developing an integrated portfolio of community services is central to a strategy of expanding
and sustaining tax administration programs over an extended period. The SPEC function’s
national partner recruitment strategy identifies organizations, including many Federal
Government agencies, interested in providing critical funding to the VITA Program because of
an intersection of interests and goals. For example, a recent Memorandum of Understanding was
signed between the SPEC function and the Department of Justice. It represents the Department
of Justice providing $1 million dollars in grants for volunteer tax preparation and individual
development accounts under a program entitled “Weed and Seed.”




                                                                                             Page 2
                   Significant Improvements Have Been Made in the Oversight of
                           the Volunteer Income Tax Assistance Program,
                            but Continued Effort Is Needed to Ensure the
                                   Accuracy of Services Provided



A prior Treasury Inspector General for Tax Administration (TIGTA) audit identified
that improvements were needed to ensure tax returns are prepared correctly at
VITA sites

A prior TIGTA audit identified that tax returns were not always correctly prepared by
VITA volunteers and taxpayers did not always receive accurate information about VITA site
locations, hours of operation, and scope of services from the IRS.4 The lack of tax return
accuracy was generally attributed to the absence of or need to improve oversight and processes
relating to (1) gathering and using key taxpayer information, (2) ensuring accountability and
appropriate training, and (3) reviewing the quality of completed tax returns. The lack of accurate
VITA site information was associated with inconsistent adherence to guidelines in place to
ensure VITA site information is input timely and accurately into the IRS computer system used
to control VITA sites.
We recommended the IRS review the existing process for ensuring volunteers are qualified to
prepare tax returns, develop a quality review program that ensures volunteers are correctly
applying the law, and ensure VITA Program site information is current and accurate. In
response, IRS management committed to emphasizing the requirement for volunteer training
certifications, implementing an automated system to improve the SPEC function’s ability to
provide volunteers with Quality Alert updates, implementing a plan for quality review and
quality assurance, and building an indicator in the IRS computer system used to control
VITA sites that field offices will use to acknowledge verification of VITA site information
accuracy.

Scenarios used in the follow-up review by auditors during anonymous visits
reflected characteristics typical of taxpayers that seek assistance from the
VITA Program

In response to the previous TIGTA audit, IRS management expressed concerns that the scenarios
used during anonymous visits may not have been representative of taxpayers that seek assistance
from the VITA Program. To ensure the scenarios used in this current review reflected the
characteristics of taxpayers that seek assistance from the VITA Program, we based the scenarios
on the tax filing characteristics of individuals that used a community-based VITA site to have
their Tax Year 2003 tax returns prepared.5 These taxpayers, on average, earned approximately
$15,050 annually, and about 34 percent of them claimed 1 or more dependents. Figure 1

4
  Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly at Internal Revenue Service Volunteer
Income Tax Assistance Sites (Reference Number 2004-40-154, dated August 2004).
5
  This is the most recent complete year of data the IRS has for the VITA Program.
                                                                                                      Page 3
                      Significant Improvements Have Been Made in the Oversight of
                              the Volunteer Income Tax Assistance Program,
                               but Continued Effort Is Needed to Ensure the
                                      Accuracy of Services Provided


provides some additional key characteristics of the 518,604 individuals that had their
Tax Year 2003 tax returns prepared at VITA sites.
              Figure 1: General Characteristics of the Tax Returns Prepared
                       by the VITA Program in 2004 (Tax Year 2003)

                         Type of Tax Return                                  Volume          Percentage of Total
   Form 1040 – U.S. Individual Income Tax Return                              60,300              11.63%
   Form 1040EZ – Income Tax Return for Single and Joint Filers
   With No Dependents                                                        54,610               10.53%

   Form 1040A – U.S. Individual Income Tax Return                            397,120              76.57%
   Form 1040NR – U.S. Nonresident Alien Income Tax Return                        5,866             1.13%
   Form 1040NR-EZ - U.S. Income Tax Return for Certain
                                                                                  311              0.06%
   Nonresident Aliens With No Dependents
   Form 1040 PC - U.S. Individual Income Tax Return (PC)                          395              0.08%
   Form 1040PR - U.S. Self-Employment Tax Return-Puerto Rico                        2              0.00%
      Type (Refund/Balance Due)               Tax Return Volume      Amount of Refund/Owed   Percentage of Total
           With Refund Due                           450,984              $589,369,291               87%
          With Balance Due                            50,672              $34,449,843                10%
              Breakeven                               16,948                         $0               3%
                  Filing Status                                 Tax Return Volume            Percentage of Total
                     Single                                            283,293                     54.63%
               Head of Household                                       114,987                     22.17%
       Married taxpayer filing joint return                            109,679                     21.15%
        Widow(er) with dependent child                                     273                      .05%
   Married filing a separate return and spouse
                                                                            75                      .01%
              is not required to file
    Married taxpayer filing a separate return,
                                                                         10,297                     1.99%
             spouse required to file
           Credits Claimed                       Tax Return Volume          Dollars          Percentage of Total
           Earned Income Tax                          178,365            $235,304,499               34%
                Child Tax                              71,125             $50,222,156               14%
             Dependent Care                            15,794              $7,370,573                3%
    Retirement Savings Contributions                   29,924              $5,106,907                6%


Source: IRS management information system containing all Tax Year 2003 tax returns prepared at VITA sites.




                                                                                                              Page 4
                    Significant Improvements Have Been Made in the Oversight of
                            the Volunteer Income Tax Assistance Program,
                             but Continued Effort Is Needed to Ensure the
                                    Accuracy of Services Provided


The two scenarios developed for this follow-up review include:
Scenario 1 – The taxpayer is divorced and lives with his or her 7-year-old child. The taxpayer
had the same job working as a clerk throughout 2004. Wages reported on the Wage and Tax
Statement (Form W-2) totaled $25,483. The taxpayer was paid bimonthly and contributed to a
401(k) plan. The taxpayer received an Interest Statement (Form 1099-INT) totaling $110. As
part of the taxpayer’s divorce, the taxpayer signed a Release of Claim to Exemption for Child of
Divorced or Separated Parents (Form 8332). The taxpayer receives $300 a month for child
support. The taxpayer had dependent care expenses totaling $1,312.
Scenario 2 – The taxpayer is single, has never been married, and lives with his or her mother.
The taxpayer has 2 children, a 10-year-old and 8-year-old that live with the taxpayer in the home
of the taxpayer’s mother during June, July, and August. The children live with the other parent
during the school year. The taxpayer works a part-time evening job as a cashier and is paid
$10,210. The taxpayer’s mother earns $40,000 a year. The taxpayer attends college part time;
the cost is paid for by the taxpayer’s mother.
This follow-up review was performed at the IRS Customer Assistance, Relationships, and
Education function in the Wage and Investment (W&I) Division Headquarters in
Atlanta, Georgia, during the period January through May 2005. From February through
April 2005, TIGTA auditors performed 36 anonymous visits and had 35 tax returns prepared6 at
randomly selected VITA sites located in 13 States (see Figure 2). Appendix IV provides the
specific city and State of the VITA sites visited as well as the volume of tax returns prepared by
the VITA sites during the 2005 Filing Season. The audit was conducted in accordance with
Government Auditing Standards. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




6
 At one site, a tax return was not completed because some volunteers participating in the tax return preparation had
not been certified (i.e., they were not trained and had not signed the Standards of Conduct Volunteer Return
Preparation Program (Form 13615)).
                                                                                                             Page 5
                    Significant Improvements Have Been Made in the Oversight of
                            the Volunteer Income Tax Assistance Program,
                             but Continued Effort Is Needed to Ensure the
                                    Accuracy of Services Provided


               Figure 2: States Included in the TIGTA’s 2005 Filing Season
                            Assessment of the VITA Program




Source: TIGTA auditors’ visits to selected VITA sites.




                                                                             Page 6
                  Significant Improvements Have Been Made in the Oversight of
                          the Volunteer Income Tax Assistance Program,
                           but Continued Effort Is Needed to Ensure the
                                  Accuracy of Services Provided




                                  Results of Review

Significant Improvement in the Oversight of the Volunteer Income Tax
Assistance Program Has Been Made

In response to concerns raised in the prior TIGTA review, the IRS established and implemented
a number of initiatives and processes that have resulted in improvements in the VITA Program.
These improvements have increased the ability of the SPEC function to oversee and monitor the
Program. They include:
•   All VITA volunteers, regardless of professional background or experience, are now
    required to pass a tax law examination to be certified to prepare tax returns.
    SPEC function guidelines require each VITA volunteer directly involved in the preparation
    of tax returns (including quality reviewers) to pass a tax law examination regardless of the
    individual’s tax preparation experience. Specifically, guidelines require VITA volunteers,
    prior to engaging in the tax return preparation process, to demonstrate that they have received
    an appropriate minimum level of training by passing a tax law examination. To “pass” an
    examination, the VITA volunteer must earn a score of 70 percent or better. For the
    36 VITA sites we visited, 120 volunteers were present and directly involved in the quality
    review and preparation of tax returns. Of the 120 VITA volunteers, 115 (96 percent) had
    passed the required tax law examination.
•   VITA volunteers are now required to sign a rules of conduct statement.
    VITA volunteers are required to sign a Standards of Conduct Volunteer Return Preparation
    Program (Form 13615) that includes a commitment to apply the tax laws equitably and
    accurately to the best of their ability and to prepare tax returns only within the scope of their
    training and experience. Of the 120 volunteers present at the VITA sites during our visits,
    116 (97 percent) had signed the required Form 13615.
•   Training is concentrated on areas identified as deficiencies in the prior TIGTA review.
    New minimum required training topics were identified for all VITA volunteers to ensure the
    Program training included tax issues most common to the Program’s customer base. In
    addition, several key topics in the VITA Program volunteer training material were enhanced
    with interview tips and decision trees to affect learning. The revised training topics covered
    adjustments to income and tax computation, filing status, dependents, Earned Income Tax
    Credit (EITC), Child Tax Credit (CTC), and the use of reference materials. Figure 3 presents
    a comparison of the accuracy of specific tax law topics from our prior review to those in this


                                                                                               Page 7
                     Significant Improvements Have Been Made in the Oversight of
                             the Volunteer Income Tax Assistance Program,
                              but Continued Effort Is Needed to Ensure the
                                     Accuracy of Services Provided


    review. VITA volunteers increased the accuracy relating to two topics where increased
    training was provided, the EITC and filing status.
                                    Figure 3: Comparison of Tax Law Accuracy for the
                                              2004 and 2005 Filing Seasons7



                                                   100
                      Accuracy Rate (Percentage)




                                                    90
                                                    80
                                                    70                                      77      77
                                                                 74
                                                    60                69      66
                                                    50
                                                                                                            54
                                                    40
                                                    30   37
                                                    20
                                                                                     20
                                                    10
                                                     0
                                                          EITC        CTC          Filing Status   Dependents
                                                                           Tax Law Topics

                                                          2004 Filing Season           2005 Filing Season

                Source: Tax returns prepared for TIGTA auditors by VITA site volunteers during
                the 2004 and 2005 Filing Seasons.

•   The SPEC/Partner Quality Improvement Team developed a multiyear quality business
    plan. In April 2004, the SPEC function established a SPEC/Partner Quality Improvement
    Team (Quality Team). The Quality Team developed a multiyear quality business plan,
    which involved preparing a map outlining the end-to-end VITA Program process and
    identifying specific intervention points that provided an opportunity to improve the overall
    quality of the Program (see Figure 4). Subsequent to outlining the process, the Quality Team
    identified five strategies focusing on improving the quality of tax returns prepared by
    VITA volunteers: (1) volunteer training; (2) standard operating procedures; (3) participants
    in the VITA Program understanding their respective roles, responsibilities, and capabilities;
    (4) continual assessment of the quality of the VITA Program; and (5) proactive
    communication of the progress, quality, success, and evolution of the VITA Program to
    internal and external stakeholders. Because of the complexity of the VITA Program and in



7
  Not all tax law topics included in this follow-up review were included in the prior audit; therefore, they are not
included in this comparison (see Figure 7 for a complete listing of tax topics addressed in this review).
                                                                                                                 Page 8
                      Significant Improvements Have Been Made in the Oversight of
                              the Volunteer Income Tax Assistance Program,
                               but Continued Effort Is Needed to Ensure the
                                      Accuracy of Services Provided


   appreciation of all stakeholders’ capacities to respond to the recommendations in the plan,
   the plan calls for a multiyear approach.
             Figure 4: VITA Program Process (Mapped by the Quality Team)


                                              TP learns that one
                                                                                    TP identifies specific
                                              of the places he or
               Taxpayer (TP)                                                        VITA site including
                                              she may go to get a                                               IRS Toll Free
Start         needs tax return
                                                  tax return
                                                                                      location, types of
                 prepared.                                                             services offered,          Operator
                                                 prepared is a
                                                                                     hours of operation.
                                                  VITA site.




                             TP signs-in                                                                    Advertisement
                                and is                    Does site have a                                    at work or
                                                Yes                                                          social group
                             interviewed                     greeter?
                              by greeter.                                                 Word of
                                                                                          mouth
                                                                                                                          If a site has a
                                                                                                                        Quality Reviewer
                                                                              TP and preparer review                      (QR), quality
                                                                    No




                                            Welcome to VITA.                  TP return (intervention                        review is
                                                                                      point).                           conducted. Note:
                                                                                                                        not all sites have a
                                                                                                                                QR.
   TP is assigned to first
                                                            TP signs-in.
    available volunteer.                                                      Preparer runs electronic
                                                                              filing diagnostics if TP is
                                                                                  electronically filing.

                                                                                                                    `   TP signs the tax
                                                                                                                            return.
                                                               Preparer
    Preparer gathers TP               Preparer
                                                            applies tax law     Preparer completes
         information                 reviews TP
                                                             (intervention          tax forms.
    (intervention point).            documents.
                                                                 point).
                                                                                                                        Tax return is filed
                                                             Preparer uses
                                                                                                                          with the IRS.
                                                               research
                                                              materials if
                                                              necessary.


  Source: Compilation of information obtained from the SPEC function.

   In addition, to provide an opportunity for the SPEC function and its VITA Program partners
   to maintain continuous communications concerning the VITA Program, the Quality Team
   hosts weekly SPEC function and partner conference calls. These calls serve as a forum for
   participants to share concerns and work together as a group to identify solutions to any
   problems surfaced, discuss development of best practices for Program-wide implementation,
   and identify product improvement opportunities.



                                                                                                                                    Page 9
                       Significant Improvements Have Been Made in the Oversight of
                               the Volunteer Income Tax Assistance Program,
                                but Continued Effort Is Needed to Ensure the
                                       Accuracy of Services Provided


•      An improved system is in place to monitor VITA Program quality indicators. The
       SPEC function’s implementation of its upgraded “Volunteer Site Monitoring Tool” provides
       management and other stakeholders with new broad capabilities for overseeing numerous
       VITA Program quality and production indicators. The information contained on this system
       is updated weekly to ensure management information reports generated by the system
       provide current perspective concerning activities of the Program. Reports can be generated
       by Area Office, Territory,8 partner, and national partner levels and by a specific VITA site if
       necessary. As a result, SPEC function management is able to rely on the system to monitor
       the VITA Program and make informed tactical adjustments as deemed necessary at any point
       during the filing season.
•      Volunteer Quality Alerts are issued to proactively address emerging issues affecting the
       quality of tax return preparation. Throughout the 2005 Filing Season, in response to
       emerging trends relating to the quality of tax returns being prepared, the SPEC function and
       its partners developed and issued 11 Volunteer Quality Alerts. See Appendix V for a list of
       the 11 Quality Alerts with a brief description of the topic covered in each Alert. These Alerts
       bring to the VITA Program volunteer community’s attention certain tax issues that may
       adversely affect the accuracy of tax returns. They also provide IRS management with a
       vehicle to immediately address issues brought to their attention by the TIGTA.
       For example, TIGTA auditors identified that VITA volunteers were not always taking into
       account all information contained on the Form W-2 auditors presented, which included an
       amount contributed to retirement savings. As a result, VITA volunteers did not always
       correctly claim the Retirement Savings Contributions Credit on the tax return. When this
       was brought to SPEC function management’s attention, the Quality Team immediately
       developed and distributed Quality Alert 2005-5, “Form W-2 Wage and Tax Statement,”
       reminding VITA volunteers that every entry on Form W-2 is critical in completing an
       accurate tax return and that they should consider it for entry to the tax return. Figure 5
       provides a copy of Volunteer Quality Alert 2005-5.




8
    The SPEC function is organized into 4 Area Offices and 42 Territories.
                                                                                              Page 10
                    Significant Improvements Have Been Made in the Oversight of
                            the Volunteer Income Tax Assistance Program,
                             but Continued Effort Is Needed to Ensure the
                                    Accuracy of Services Provided


  Figure 5: Volunteer Quality Alert 2005-05 – Form W-2 Wage and Tax Statement




Source: IRS public Internet site, IRS.gov.




                                                                          Page 11
                       Significant Improvements Have Been Made in the Oversight of
                               the Volunteer Income Tax Assistance Program,
                                but Continued Effort Is Needed to Ensure the
                                       Accuracy of Services Provided


      Volunteer Quality Alerts may not be reaching all volunteers. Whether these valuable
      communiqués reached all frontline VITA volunteers remains unanswered because there is no
      system to ensure all VITA sites and volunteers are receiving the Quality Alerts. After the
      Quality Alerts were issued, our auditors asked VITA volunteers at 18 VITA sites if the site
      had received the Alerts; 6 (33 percent) of the 18 VITA sites had not.


Recommendation
Recommendation 1: The Commissioner, W&I Division, should develop a process to ensure
Quality Alerts reach all VITA volunteers.
           Management’s Response: The SPEC function will educate partners and site
           coordinators at site coordinator meetings on the Quality Alerts and will conduct random
           checks at the Territory level to determine if volunteers received the Quality Alerts. As
           part of the site review process, tax specialists will determine if Quality Alerts were made
           available to all volunteers.


Challenges Remain for an Effective Quality Assurance Process

Key controls implemented by the SPEC function to help ensure the accuracy of tax returns
prepared by VITA volunteers were not consistently followed. As a result, 23 (66 percent) of the
35 tax returns prepared were incorrect. If 18 (78 percent) of the 23 incorrectly prepared tax
returns had been filed, the IRS would have incorrectly refunded $17,818. Alternatively, if the
remaining 5 (22 percent) incorrectly prepared tax returns had been filed, the taxpayers would not
have received $3,215 in tax refunds to which they were entitled.9 Although a comprehensive
quality assurance process was proposed in response to the prior TIGTA review, a number of
obstacles, including stakeholder concerns about the intrusiveness of an observation process and
data collection restrictions, have prevented the implementation of an effective process.

Keys controls outlined in the “Integrated Return Preparation Process Model”
were not consistently followed

Central to the SPEC function’s strategy for ensuring the accuracy of tax returns completed by
VITA volunteers is its “Integrated Return Preparation Process Model.” This Model outlines a
step-by-step method for preparing accurate tax returns at VITA sites. The Model’s premise is
that, to complete accurate tax returns, VITA Program volunteer preparers must ask certain

9
    See Appendix VI for details.
                                                                                               Page 12
                   Significant Improvements Have Been Made in the Oversight of
                           the Volunteer Income Tax Assistance Program,
                            but Continued Effort Is Needed to Ensure the
                                   Accuracy of Services Provided


questions about the taxpayers and, if relevant, their families. The Model reinforces the
importance of completing a Tax Preparation Information Sheet (Form 13614)10 and conducting a
probing interview using the Volunteer Resource Guide (Publication 4012).
The Model also outlines the need to ensure a quality review of the completed tax return is
conducted. To measure the quality of the tax return, the quality review process is designed to
ensure calculations and the name(s) and Social Security Number(s) of the taxpayer(s), including
a spouse and any dependents, are correct. Additionally, it requires a validation to determine
whether sufficient questions were asked to establish the taxpayer’s filing status and whether
income from all Forms W-2 and other income documents is reported on the tax return.
For the 35 tax returns prepared during this review, key controls outlined in the Model were not
consistently followed. For example:
•    Intake sheets containing critical questions were not always used. The SPEC function
     developed the Form 13614, which contains a standardized list of required intake questions to
     guide VITA volunteers in asking taxpayers basic questions about themselves. The purpose
     of the intake sheet is to open dialogue between the taxpayer and the VITA volunteer,
     providing the opportunity for the volunteer to get acquainted with the taxpayer’s unique set
     of facts. Each VITA site is required to use the Form 13614. However, VITA sites were
     allowed to create their own intake sheet as long as the questions included those listed on the
     Form 13614. For the 35 tax returns prepared:
     o Five (14 percent) of 35 VITA sites did not use an intake sheet at all.
     o Eight (27 percent) of the 30 VITA sites that used an intake sheet did not include all the
       required critical questions on the intake sheet.
•    VITA volunteers did not always use the information auditors provided on the intake
     sheets. Although the intake sheet captures information that, if used correctly, provides the
     VITA volunteer with sufficient information to correctly determine eligibility for many tax
     issues (Dependent Care Credit, income, etc.), volunteers did not always use this information
     to prepare the tax returns. For example, on Form 13614:
     o A question asks, “Did you pay for childcare [sic] during the tax year that allowed you to
       work?” For 13 tax returns, auditors checked that they had child care expenses. However,
       for 7 (54 percent) of the 13 tax returns, the VITA volunteers did not address the child
       care expense issue and, as a result, did not claim a Dependent Care Credit on the tax
       returns.
     o A question asks, “Did you or your spouse have income during the tax year that was not
       reported on a [Form] W-2?” For 13 tax returns, auditors checked that they had other

10
  See Appendix VII for a copy of Form 13614. The IRS refers to Form 13614 as the “Interview and Intake Sheet”
in its response to the draft report (Appendix IX).
                                                                                                     Page 13
                  Significant Improvements Have Been Made in the Oversight of
                          the Volunteer Income Tax Assistance Program,
                           but Continued Effort Is Needed to Ensure the
                                  Accuracy of Services Provided


       income. However, for 4 (31 percent) of the 13 tax returns, the VITA volunteers did not
       address the other income issue and, as a result, did not include the interest income on the
       tax returns.
    We shared this information with SPEC function management, and they immediately
    developed and issued Quality Alert 2005-3, “Asking the Right Questions,” to remind
    volunteers of the importance of effectively using the information provided by taxpayers on
    Forms 13614.
    Opportunities exist to improve the intake sheet by including additional critical questions.
    If used correctly, the intake sheet is an effective tool for ensuring critical taxpayer
    information is obtained and applied during the interview process. The addition of the
    following two questions may further assist VITA volunteers in obtaining facts relative to a
    taxpayer’s marital status and ability to claim dependents, if applicable.
       1. Are you divorced? The intake sheet includes the question “Were you legally married
          as of December 31st?”
       2. Can anyone else claim the children as dependents? The intake sheet includes the
          question, “Can someone else claim your spouse on their tax return?”
    Had either of these questions been included, VITA volunteers might have asked if the
    auditors had signed an agreement during divorce proceedings granting the ex-spouse the right
    to claim the child as a dependent.
•   VITA volunteers did not always use Publication 4012 when making tax determinations.
    In 31 (89 percent) of 35 VITA sites where a tax return was prepared, auditors observed that
    the newly revised Publication 4012 was available to VITA volunteers. However, only
    10 (29 percent) of the 35 VITA volunteers referred to it when preparing the tax returns.
    Figure 6 shows an excerpt from Publication 4012 that illustrates the importance of using the
    guide to ensure VITA volunteers have all the information needed to accurately prepare tax
    returns. Had VITA volunteers used Publication 4012 when preparing tax returns for auditors
    using Scenario 1, the volunteers would most likely have determined the auditors were not
    entitled to claim the child. Scenario 1 presented the auditor as a divorced taxpayer who had
    signed a Form 8332 granting the ex-spouse the right to claim the 7-year-old child as a
    dependent. If referred to, a table in Publication 4012 would have led VITA volunteers
    through a series of questions concluding that the auditors were not entitled to claim the child.
    Only 5 (28 percent) of 18 tax returns prepared involving this scenario were accurate with
    respect to the dependent exemption.




                                                                                            Page 14
                      Significant Improvements Have Been Made in the Oversight of
                              the Volunteer Income Tax Assistance Program,
                               but Continued Effort Is Needed to Ensure the
                                      Accuracy of Services Provided


                Figure 6: Interview Tips for Determining Dependent Eligibility




    Auditors used a
    scenario that did
    involve Form 8332.

    If asked by the
    volunteer following this
    table, the auditor would
    indicate this and the
    volunteer would
    correctly conclude that
    the auditor was not
    entitled to claim the
    dependent in question .



Source: Publication 4012 (for use in preparing Tax Year 2004 returns).

•    VITA volunteers did not always ensure completed tax returns were subjected to the
     required quality review process. For 14 (40 percent) of 35 tax returns prepared at the
     VITA sites, there was no onsite quality review completed. When VITA volunteers
     completed the tax returns, they did not review the tax returns with the taxpayers and/or the
     tax returns were not reviewed by other volunteers. Additionally, checklists developed to
     guide and assist VITA volunteers in quality reviewing the tax returns were not used. See
     Appendix VIII for an example of the Quality Review Checklist.
The two different TIGTA scenarios portray tax law issues that VITA volunteers commonly
handle. Figure 7 shows VITA volunteers did not always determine the correct income, filing
status, tax credits, and dependent exemptions.




                                                                                            Page 15
                      Significant Improvements Have Been Made in the Oversight of
                              the Volunteer Income Tax Assistance Program,
                               but Continued Effort Is Needed to Ensure the
                                      Accuracy of Services Provided


                        Figure 7: Accuracy of Eligibility Determinations

                                                         Eligibility Assessment

                                       Scenario # 1                                   Scenario # 2

                            18 Tax Returns Prepared (O Tax                 17 Tax Returns Prepared (12 Tax
                             Returns Prepared Accurately)                   Returns Prepared Accurately)


                         Number of Tax                                   Number of Tax
                           Returns on                                      Returns on
                           Which Tax                                       Which Tax
                            Eligibility                                     Eligibility
       Tax Law           Determination Is         Percentage             Determination Is        Percentage
        Topic               Incorrect              Incorrect                Incorrect             Incorrect

         CTC                     12                   67%                         0                   0%

    Dependent Care
                                 11                   61%                 Not Included                NA
        Credit
      Dependency
                                 13                   72%                         4                  24%
      Exemption

         EITC                    8                    44%                         1                   6%


      Filing Status              4                    22%                         4                  24%


        Income                   6                    33%                 Not Included                NA

      Retirement
       Savings
     Contributions               10                   56%                 Not Included                NA
        Credit

   Taxpayer Key Facts:                                                     Taxpayer Key Facts:
   - Lives with his/her 7- year-old child.                                 - Single.
   - Contributed to a 401(k) plan.                                         - Two children.
   - Received an Interest Statement (Form 1099-INT).                       - Children live with the other
   - As part of divorce, taxpayer signed a Release of Claim to               parent during the school year.
     Exemption for Child of Divorced or Separated Parents (Form 8332).
   - Had dependent care expenses.



Source: Tax returns prepared for TIGTA auditors by VITA volunteers during the 2005 Filing Season. NA = not
applicable.

                                                                                                              Page 16
                   Significant Improvements Have Been Made in the Oversight of
                           the Volunteer Income Tax Assistance Program,
                            but Continued Effort Is Needed to Ensure the
                                   Accuracy of Services Provided


Incorrectly prepared tax returns not only increase the risk of taxpayers receiving erroneous
payments, they also may create additional burden on taxpayers if the IRS later finds potential
errors on the tax returns. These taxpayers may later be required to face the demands of an IRS
audit of their tax returns due to potential errors identified on the returns.

VITA site information used by IRS toll-free telephone program assistors was not
always accurate

For 29 (45 percent) of 64 VITA sites tested, the site information used by IRS toll-free telephone
program assistors to answer taxpayer calls regarding the locations of and/or services offered by
VITA sites was inaccurate. Testing included validation of each VITA site’s telephone number,
address, and dates/hours of operation for which tax return preparation service is offered.
SPEC function guidelines require field managers to verify, as part of filing season readiness
plans and site reviews, that VITA site information is current and accurate so IRS
toll-free telephone program assistors can direct a caller to the right VITA site based on the
caller’s needs. Additionally, according to the IRS Volunteer Coordinator’s Handbook
(Publication 1084), by January 1st of each year, VITA site coordinators must complete a
Site Information Sheet indicating the locations, days, and hours of operations for their respective
sites and provide it to the appropriate SPEC function contact to ensure the database of
information provided to IRS toll-free telephone program assistors is updated to accurately reflect
VITA site information.
For 12 (41 percent) of 29 VITA sites for which the site information was inaccurate, the VITA
site coordinator could not confirm receipt of the required Site Information Sheet. For the
remaining 17 of 29 VITA sites, 4 had not informed the SPEC function of changes made to the
information contained in the original Site Information Sheet. For the remaining 13 of 17 VITA
sites, the information from the Site Information Sheet was either incorrectly updated or system
limitations resulted in inaccurate or incomplete information being made available to toll-free
telephone program assistors.
Based on 31,329 responses from taxpayers surveyed at various VITA sites during the
2005 Filing Season, only about 5.8 percent of the taxpayers indicated they contacted the IRS to
learn about VITA sites.11 The majority of taxpayers instead learned about the VITA Program
from friends, relatives, employers, the media, the Internet, etc. However, for those taxpayers that
rely on the IRS for VITA site information, inaccurate information can create significant burden.
When we informed SPEC function management about the errors, they took immediate actions to



11
  This information was provided by the IRS based on a Customer Satisfaction Survey conducted at VITA sites
during the January through April 2005.
                                                                                                      Page 17
                 Significant Improvements Have Been Made in the Oversight of
                         the Volunteer Income Tax Assistance Program,
                          but Continued Effort Is Needed to Ensure the
                                 Accuracy of Services Provided


correct the information for the respective VITA sites to minimize the risk of incorrect VITA site
information being made available to taxpayers.

In Fiscal Year 2005, the SPEC function faced obstacles implementing a
comprehensive quality assurance process

During Fiscal Year 2005, the SPEC function proposed to implement a new, three-tier quality
assurance process to assess the VITA Program’s adherence to and effectiveness of quality
standards and procedures. The quality assurance plans proposed:
•   Three thousand site reviews. IRS employees visit VITA sites to determine if they have
    prescribed processes in place.
•   One hundred shopping reviews. American Institute of Certified Public Accountants
    (AICPA) members pose as taxpayers using an invented scenario to have tax returns prepared
    by VITA volunteers.
•   Six hundred direct observation reviews. IRS employees observe VITA volunteers preparing
    tax returns and measure compliance with procedures.
However, efforts to effectively implement all three tiers of this new quality assurance process
were significantly hampered. Factors hindering the implementation of the quality assurance
process included:
•   Lack of a system of records. The IRS did not have a specifically assigned System of
    Records Notification in place alerting the public about the data it would be capturing as part
    of the site reviews. This is a lengthy legal requirement requiring the agency to disclose,
    through the Federal Register, specific information about the system, including (1) the name
    and location of the system; (2) the categories of individuals on whom records are maintained
    in the system; (3) each routine use of the records contained in the system, including the
    categories of users and the purpose of such use; and (4) the policies and practices of the
    agency regarding storage, access controls, retention, and disposal of the records. As a result,
    although VITA site reviews were conducted, the SPEC function was unable to record which
    site was reviewed, which prevented it from tracking specific VITA site review results and
    consequently eliminated the possibility of effectively following up the reviews with actions
    for improvement. However, to resolve this limitation, the Quality Team has drafted a
    comprehensive System of Records Notification, which is in the approval process.
•   Incomplete shopping reviews. The number of completed shopping reviews to secure a
    neutral-party perspective on the tax return preparation process and the taxpayer qualitative
    experience did not meet expectations. Only 14 of the 100 reviews planned were actually
    performed. The anticipated level of participation never materialized. The timing of the
    training was a key factor that contributed to the smaller number of available shoppers.
                                                                                           Page 18
                 Significant Improvements Have Been Made in the Oversight of
                         the Volunteer Income Tax Assistance Program,
                          but Continued Effort Is Needed to Ensure the
                                 Accuracy of Services Provided


    However, based on our discussion with the Director, AICPA, Tax Division, the AICPA is
    committed to expanding its involvement in the VITA Program quality assurance process
    during the 2006 Filing Season and beyond.
•   Discontinuance of observation reviews. Observation reviews were discontinued as of
    February 1, 2005, with just 70 of the planned 600 reviews completed. This decision was
    based on growing stakeholder concerns that taxpayers may be deterred from having their tax
    returns prepared by VITA volunteers when they learned that IRS representatives might be
    overseeing and perhaps unfairly scrutinizing the preparation of their tax returns. The
    resulting sample size was too small to draw any strong conclusions regarding the quality of
    the VITA Program.
Without an effective quality assurance process, management lacks sufficient information to
monitor VITA Program quality and properly manage corrective actions. Specifically, current
limitations associated with the VITA Program quality assurance process have resulted in the lack
of data needed to steer efforts to update publications and forms and to improve VITA Program
volunteer training for the 2006 Filing Season. Further, without an effective quality assurance
process, the risk will continue that VITA volunteers will inappropriately apply the tax law, which
may result in incorrectly prepared tax returns and significant losses to the Federal Government.


Recommendations
The Commissioner, W&I Division, should:
Recommendation 2: Revise the Form 13614 to include questions to determine whether
1) taxpayers are divorced and 2) anyone else can claim their children as dependents.
       Management’s Response: The SPEC function revised the Form 13614 to include
       questions to determine whether taxpayers are divorced and anyone else can claim their
       children. It will check for use of the Form 13614 during planned Volunteer Return
       Preparation Program Quality Improvement Plan and discretionary visits throughout the
       filing season.
Recommendation 3: Ensure Site Information Sheets are received from each participating
VITA site and the information from the Sheets is accurately reflected in the information used by
IRS toll-free telephone program assistors.
       Management’s Response: In Fiscal Year 2006, the SPEC function will require
       mandatory use of the newly designed SPEC Volunteer Site Information Sheet
       (Form 13715). Area Offices will ensure site accuracy by conducting at least 10 percent
       test calls to VITA appointment-only sites by March 1, 2006. In addition, the SPEC
       function will develop procedures for continuous updates by sharing the Form 13715


                                                                                          Page 19
                 Significant Improvements Have Been Made in the Oversight of
                         the Volunteer Income Tax Assistance Program,
                          but Continued Effort Is Needed to Ensure the
                                 Accuracy of Services Provided


       electronically with site coordinators to provide real-time changes that may occur
       throughout the filing season.
Recommendation 4: Pursue methods to achieve the objectives for the quality assurance
process planned for the 2005 Filing Season. These objectives included observation and site
reviews and shopping visits.
       Management’s Response: The SPEC function is planning a three-tier approach to
       its Quality Improvement Program to include site reviews, shopping reviews, and tax
       return reviews. The tax return reviews will be in lieu of observation reviews because of
       stakeholder concerns and SPEC function management’s belief that the observations did
       not yield valid data because individuals act differently when being observed.




                                                                                           Page 20
                    Significant Improvements Have Been Made in the Oversight of
                            the Volunteer Income Tax Assistance Program,
                             but Continued Effort Is Needed to Ensure the
                                    Accuracy of Services Provided


                                                                                            Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether taxpayers receive quality service, including the
accurate preparation of their tax returns, when visiting Volunteer Income Tax Assistance (VITA)
sites to have tax returns prepared. We also assessed the ease with which taxpayers can locate
VITA sites and determine the specific services offered and the Internal Revenue Service’s (IRS)
process for ensuring the overall quality of VITA Program operations.
Specifically, we:
I.     Identified the IRS’ process for measuring the quality and accuracy of the VITA Program.
        A.    Determined actions taken in response to a prior Treasury Inspector General for Tax
              Administration (TIGTA) audit1 to improve quality and accuracy.
        B.    Obtained and reviewed the IRS’ response to Senate Appropriations Committee
              Report 108-342, detailing the IRS’ proposed method for properly educating and
              training VITA volunteers to ensure tax returns prepared on the taxpayers’ behalf are
              done correctly.
        C.    Identified key controls implemented to assist in ensuring tax returns are prepared
              accurately and information provided to taxpayers regarding the VITA site is
              accurate.
        D.    Obtained and reviewed internal guidance to identify key controls that assist the IRS
              in ensuring the accurate preparation of tax returns.
        E.    Obtained and reviewed guidance provided to VITA volunteers to identify key
              controls the VITA sites use to ensure the accurate preparation of tax returns.
 II.    Determined if taxpayers are provided with accurate information as to the VITA sites’
        locations, hours of operation, and types of services provided.
         A. Determined the process followed by the IRS to populate the VITA site listing and
            ensure the information contained remains accurate.
         B. Confirmed the accuracy of the information contained on the listing provided to
            toll-free telephone program assistors for 64 VITA sites judgmentally selected from
            February 1 through April 14, 2005, covering all 4 Stakeholder Partnerships,


1
 Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly at Internal Revenue Service Volunteer
Income Tax Assistance Sites (Reference Number 2004-40-154, dated August 2004).

                                                                                                     Page 21
                       Significant Improvements Have Been Made in the Oversight of
                               the Volunteer Income Tax Assistance Program,
                                but Continued Effort Is Needed to Ensure the
                                       Accuracy of Services Provided


                Education, and Communication function Area Offices.2 The population of VITA
                sites is not fixed; VITA sites open and close throughout the filing season. Therefore,
                we could not determine the total population of VITA sites and could not do a
                statistical sample. Our sample of sites was judgmentally selected based on the sites’
                proximity to major cities and available resources on the dates of the actual visits.
           C. For the VITA site information provided to taxpayers determined to be incorrect,
              determined why and attempted to measure the potential effect on taxpayers.
III.      Determined if the VITA sites are accurately preparing tax returns based on facts provided
          by taxpayers.
          A. Obtained and analyzed an extract of Tax Year 2003 tax returns prepared at
             community-based VITA sites to identify characteristics of these taxpayers. This
             information was used as a basis for the scenarios used by TIGTA auditors.
             Tax Year 2003 data were used because they were the most current and complete data
             available.
          B. Selected a judgmental sample of 36 VITA sites nationwide and attempted to have a
             tax return prepared. Sites were judgmentally selected in each of the four Stakeholder
             Partnerships, Education, and Communication Area Offices and included at least two
             States from each Area Office. Site selection was based on resources and the sites’
             proximity to major cities. See Appendix IV for a list of VITA sites visited.
          C. Determined if the tax returns prepared by the VITA volunteers were correct. For the
             tax returns prepared incorrectly, we determined why and attempted to measure the
             potential effect on taxpayers and tax revenue.
IV.       Determined if VITA sites were operating as intended, including ensuring VITA volunteers
          are certified to prepare tax returns.
          A. Conducted VITA site reviews evaluating items included on the IRS Volunteer Return
             Preparation Program Site Reviews (Form 6729).
          B. Compared VITA volunteers certified as reported to the IRS on Volunteer Assistance
             Summary Reports (Form 13206) to volunteers working at the VITA sites.
          C. Confirmed if the 120 VITA volunteers involved in the preparation of tax returns on
             the days of our visits had passed the IRS-approved test for certification on minimum
             required training topics, including the “Basics” – income, adjustments to income and



2
    The SPEC function is organized into 4 Area Offices and 42 Territories.




                                                                                              Page 22
          Significant Improvements Have Been Made in the Oversight of
                  the Volunteer Income Tax Assistance Program,
                   but Continued Effort Is Needed to Ensure the
                          Accuracy of Services Provided


    tax computation, filing status, dependents, Earned Income Tax Credit, Child Tax
    Credit, and use of reference materials.
D. Confirmed if the 120 VITA volunteers involved in the preparation of tax returns on
   the days of our visits had signed a Standards of Conduct Volunteer Return
   Preparation Program (Form 13615).
E. For the VITA sites not operating as intended, attempted to determine why as well as
   the effect on taxpayers.




                                                                                Page 23
                Significant Improvements Have Been Made in the Oversight of
                        the Volunteer Income Tax Assistance Program,
                         but Continued Effort Is Needed to Ensure the
                                Accuracy of Services Provided


                                                                              Appendix II

                 Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Scott A. Macfarlane, Acting Assistant Inspector General for Audit (Wage and Investment
Income Programs)
Augusta R. Cook, Director
Russell P. Martin, Audit Manager
Lena M. Dietles, Lead Auditor
Robert Howes, Senior Auditor
Mary L. Keyes, Auditor
Sylvia Sloan-Copeland, Auditor
Joseph C. Butler, Information Technology Specialist




                                                                                         Page 24
                Significant Improvements Have Been Made in the Oversight of
                        the Volunteer Income Tax Assistance Program,
                         but Continued Effort Is Needed to Ensure the
                                Accuracy of Services Provided


                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Acting Director, Strategy and Finance, Wage and Investment Division SE:W:S
Acting Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Acting Director, Stakeholder Partnerships, Education, and Communication, Wage and
Investment Division SE:W:CAR:SPEC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Acting Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                     Page 25
                    Significant Improvements Have Been Made in the Oversight of
                            the Volunteer Income Tax Assistance Program,
                             but Continued Effort Is Needed to Ensure the
                                    Accuracy of Services Provided


                                                                                                 Appendix IV

           Sites Reviewed and Volume of Tax Returns
             Prepared During the 2005 Filing Season

                                      Volume                                                       Volume
                              Volume of e-file Volume of                                  Volume of e-file Volume of
    Volunteer Income Tax                                       Volunteer Income Tax
                              of Tax    Tax Paper Tax                                     of Tax     Tax Paper Tax
          Assistance                                                 Assistance
                              Returns Returns Returns                                    Returns Returns Returns
        City          State Prepared Prepared Prepared          City           State     Prepared Prepared Prepared
 Phoenix           Arizona     2,300   2,224      76       Springfield     Massachusetts    993      889      104
 Scottsdale        Arizona      215     195        20      Worcester       Massachusetts    111      110       1
 Tucson            Arizona      326     296       30       Brooklyn        New York        4,333    3,935     398
 Chula Vista       California 258       254         4      New York        New York           1        0       1
 Long Beach        California   50      25         25      New York        New York         386      376      10
 Los Angeles       California   50      50         0       Greensboro      North Carolina 183        157      26
 Fort Lauderdale Florida        329     313        16      Jamestown       North Carolina 312        300      12
 Miami             Florida      250     227       23       Winston-Salem North Carolina 178          164      14
 West Palm Beach Florida        247     235       12       Columbus        Ohio              51        0      51
 Macon             Georgia      73      73         0       Dayton          Ohio              42       42       0
 Marietta          Georgia      91      89         2       Springfield     Ohio             737      703      34
 Savannah          Georgia      78      76         2       Allentown       Pennsylvania     177      169       8
 Chicago           Illinois    1,745   1,300      445      Lancaster       Pennsylvania      94       82      12
 Highland Park     Illinois     49       0         49      Philadelphia Pennsylvania        446      433      13
 Kankakee          Illinois     745     594       151      Providence      Rhode Island     207      193      14
 Hammond           Louisiana 159        157         2      Austin          Texas           1,938    1,475     463
 New Orleans       Louisiana    74      72         2       San Antonio Texas                472      439      33
 Saint Martinville Louisiana    14       0        14       San Marcos      Texas             23       23       0
Source: Volunteer Income Tax Assistance (VITA) Program data provided by the Internal Revenue Service for the
VITA sites included in our review. The term “e-file” means electronic filing.

No VITA site identification information is provided, only the State and city of each VITA site
visited. The volume of tax returns prepared is for the 2005 Filing Season1 through
May 21, 2005, for the specific VITA site visited.




1
  The 2005 Filing Season relates to the processing of Tax Year 2004 tax returns. The filing season is the period
from January through mid-April when most individual income tax returns are filed.

                                                                                                            Page 26
                    Significant Improvements Have Been Made in the Oversight of
                            the Volunteer Income Tax Assistance Program,
                             but Continued Effort Is Needed to Ensure the
                                    Accuracy of Services Provided


                                                                                                  Appendix V

              Volunteer Quality Alerts Issued During the
                         2005 Filing Season                                   1




    Quality
     Alert         Date of
    Number        Issuance                  Title                           Objective of Quality Alert
    2005-1 **    01/14/2005     Grandniece/Grandnephew         To ensure an accurate determination as to whether a
                                                               grandniece/grandnephew is considered a qualifying
                                                               person for the Head of Household filing status or a
                                                               qualifying child for the Earned Income Tax Credit
                                                               and/or the Child Tax Credit.
     2005-2      02/27/2005     Tax Treatment Cash             To ensure accurate tax treatment of Tsunami Relief
                                Contributions for              contributions.
                                Tsunami Relief
    2005-3 **    02/04/2005     Asking the Right               To obtain the information necessary to assist
                                Questions                      customers in preparing and filing accurate tax
                                                               returns. To confirm the data received are complete.
                                                               To use a strong quality review process to assure the
                                                               information is accurately included and reflected on
                                                               the customer’s tax return. To ensure the proper use
                                                               of intake information sheet information, proper use
                                                               of reference guide material, and quality review of
                                                               each tax return prepared.
    2005-4 **    02/15/2005     Filing & Marital Status -      To ensure volunteers correctly determine filing status
                                The Tax Connection             (e.g., Single, Head of Household) by not making
                                                               assumptions but instead conduct a quality interview
                                                               and use reference materials to guide determinations.
    2005-5 **    03/15/2005     Form W-2 Wage and Tax          To ensure volunteers use the income statements in
                                Statement                      combination with the intake sheet and a strong
                                                               interview as tax returns are prepared, consider every
                                                               entry on the Wage and Tax Statement (Form W-2) as
                                                               critical in completing an accurate tax return, and
                                                               consider what they see and enter what they see.




1
  The 2005 Filing Season relates to the processing of Tax Year 2004 tax returns. The filing season is the period
from January through mid-April when most individual income tax returns are filed.

                                                                                                            Page 27
                    Significant Improvements Have Been Made in the Oversight of
                            the Volunteer Income Tax Assistance Program,
                             but Continued Effort Is Needed to Ensure the
                                    Accuracy of Services Provided


   Quality
    Alert          Date of
   Number         Issuance                Title                           Objective of Quality Alert
   2005-6       03/14/2005     Top 3 e-file Rejects          To avoid the top three causes for electronically filed
                                                             (e-file) tax returns to reject from Internal Revenue
                                                             Service processing – ensure information from
                                                             Form W-2 is accurately entered on a tax return; and
                                                             ensure Social Security Numbers, birth dates, and
                                                             names of qualifying children are accurate on Earned
                                                             Income Credit (Schedule EIC).
  2005-7 **     03/07/2005     Other Income                  To ensure accurate treatment of interest, dividends,
                                                             and gambling income through the use of the quality
                                                             review of the tax return. To ensure volunteers review
                                                             intake/taxpayer information sheet to determine if
                                                             other income is indicated by the taxpayer.
  2005-8 **     03/11/2005     Child & Dependent Care        To ensure volunteers correctly determine the Child
                               Credit                        and Dependent Care Credit by ensuring they prepare
                                                             a Child and Dependent Care Expenses (Form 2441),
                                                             including boxes on the Main Information screen, if
                                                             using the Tax Wise tax return preparation computer
                                                             application.
  2005-9 **     03/17/2005     Adjustments                   To ensure volunteers determine whether the
                                                             taxpayers are eligible for specific adjustments.
                                                             Adjustments are subtractions from total income.
                                                             Total income minus adjustments results in Adjusted
                                                             Gross Income, an important number for tax purposes.
                                                             Adjustments generally covered in the Volunteer
                                                             Income Tax Assistance (VITA) Program include
                                                             Educator Expenses, Individual Retirement
                                                             Arrangements, Student Loan Interest, Tuition and
                                                             Fees, One-Half of Self-Employment Tax, Penalty on
                                                             Early Withdrawal of Savings, and Alimony.
   2005-10      04/06/2005     Form 1098-T                   To ensure volunteers correctly determine
                               [Tuition Statement]           education-related tax benefits.
   2005-11      04/08/2005     Post Filing Season            To close the VITA Program site while maintaining
                               Reminders                     taxpayer confidentiality and maximizing remaining
                                                             resources.
Source: Internal Revenue Service public Internet site (IRS.gov) and the Stakeholder Partnerships, Education, and
Communication function.

** Indicates the issuance of the Quality Alerts was due to information provided to the
   Stakeholder Partnerships, Education, and Communication function by the Treasury Inspector
   General for Tax Administration.



                                                                                                           Page 28
                Significant Improvements Have Been Made in the Oversight of
                        the Volunteer Income Tax Assistance Program,
                         but Continued Effort Is Needed to Ensure the
                                Accuracy of Services Provided


                                                                                        Appendix VI

      Results of Tax Returns Incorrectly Prepared
       at Volunteer Income Tax Assistance Sites

     Volunteer Income Tax
    Assistance (VITA) Sites               VITA Site        Correct  Refund     Refund
              Visited                      Refund          Refund Understated Overstated
 Tucson, Arizona                              $3,130        $1,665                $1,465
 Chula Vista, California                      $2,781        $1,665                $1,116
 Long Beach, California                         $477          $251                  $226
 Fort Lauderdale, Florida                     $2,582        $1,665                  $917
 Miami, Florida                               $2,699        $1,665                $1,034
 West Palm Beach, Florida                       $477          $251                  $226
 Marietta, Georgia                              $477          $251                  $226
 Savannah, Georgia                            $2,781        $1,665                $1,116
 Highland Park, Illinois                      $4,470          $251                $4,219
 Kankakee, Illinois                           $1,285        $1,665      -$380
 Hammond, Louisiana                             $477          $251                  $226
 Saint Martinville, Louisiana                 $2,699        $1,665                $1,034
 Worcester, Massachusetts                     $3,079        $1,665                $1,414
 Brooklyn, New York                             $539        $1,665    -$1,126
 New York, New York                           $1,956        $1,665                  $291
 Greensboro, North Carolina                   $1,117        $1,665      -$548
 Jamestown, North Carolina                      $853        $1,665      -$812
 Dayton, Ohio                                 $2,730        $1,665                $1,065
 Springfield, Ohio                            $1,821        $1,665                  $156
 Allentown, Pennsylvania                      $3,130        $1,665                $1,465
 Philadelphia, Pennsylvania                   $2,750        $1,665                $1,085
 San Antonio, Texas                           $1,316        $1,665      -$349
 San Marcos, Texas                            $2,202        $1,665                  $537
 Totals:                                                           -$3,215     $17,818
Source: Anonymous visits performed by Treasury Inspector General for Tax Administration auditors.




                                                                                                    Page 29
             Significant Improvements Have Been Made in the Oversight of
                     the Volunteer Income Tax Assistance Program,
                      but Continued Effort Is Needed to Ensure the
                             Accuracy of Services Provided


                                                                               Appendix VII

            Tax Preparation Information Sheet




Source: The Stakeholder Partnerships, Education, and Communication function.




                                                                                     Page 30
         Significant Improvements Have Been Made in the Oversight of
                 the Volunteer Income Tax Assistance Program,
                  but Continued Effort Is Needed to Ensure the
                         Accuracy of Services Provided


                                                                               Appendix VIII

                  Quality Review Checklist




Source: The Stakeholder Partnerships, Education, and Communication function.




                                                                                      Page 31
    Significant Improvements Have Been Made in the Oversight of
            the Volunteer Income Tax Assistance Program,
             but Continued Effort Is Needed to Ensure the
                    Accuracy of Services Provided


                                                   Appendix IX
Management’s Response to the Draft Report




                                                          Page 32
Significant Improvements Have Been Made in the Oversight of
        the Volunteer Income Tax Assistance Program,
         but Continued Effort Is Needed to Ensure the
                Accuracy of Services Provided




                                                      Page 33
Significant Improvements Have Been Made in the Oversight of
        the Volunteer Income Tax Assistance Program,
         but Continued Effort Is Needed to Ensure the
                Accuracy of Services Provided




                                                      Page 34
Significant Improvements Have Been Made in the Oversight of
        the Volunteer Income Tax Assistance Program,
         but Continued Effort Is Needed to Ensure the
                Accuracy of Services Provided




                                                      Page 35
Significant Improvements Have Been Made in the Oversight of
        the Volunteer Income Tax Assistance Program,
         but Continued Effort Is Needed to Ensure the
                Accuracy of Services Provided




                                                      Page 36
Significant Improvements Have Been Made in the Oversight of
        the Volunteer Income Tax Assistance Program,
         but Continued Effort Is Needed to Ensure the
                Accuracy of Services Provided




                                                      Page 37
